H10L111565072                              June 22, 2010




                    Oversight Review
           Reinvestigation of Combat Action at
               Wanat Village, Afghanistan
                                    INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DR IVE 

                                ARLINGTON, VIRGINIA 22202-4704 


                                                                           JUN 2 2 2010

MEMORANDUM FOR INSPECTOR GENERAL

SUBJECT: 	 Oversight Review of the Reinvestigation into the Combat Action at Wanat
           Village, Afghanistan


         We have completed our oversight review of the reinvestigation conducted by
Lieutenant General Richard Natonski, U. S. Marine Corps, into the Battle of Wanat at the
direction of General David Petraeus, Commander, U.S. Central Command. The
reinvestigation was completed on January 12,2010, and approved with Illodification by
General Petraeus on January 21, 2010.

         We conclude that the reinvestigation sufficiently established the facts regarding
the combat action at Wanat and reasonably assigned accountability by identifying those
individuals whose acts or omissions could be characterized as dereliction in the
performance of duties. It concluded that company, battalion, and brigade commanders
were derelict in the performance of their duties through neglect or culpable inefficiency,
but determined that Division staff exercised due care in the matter.

         We concur with the findings and conclusions of the reinvestigation. Our
determination in that regard is based on our review of the report of reinvestigation, its 78
enclosures, the initial cOlllmander's inquiry of the Battle at Wanat completed under Army
Regulation 15-6, and applicable Army guidance/doctrine concerning command
responsibility.

       We recollunelld that you provide the attached report to the Secretary of Defense
and to Members of Congress who have expressed interest in the matter.




                                           Deputy Inspector General for
                                           Administrative Investigations

Attachment:
As stated
H10L111565072



                                             OVERSIGHT REVIEW

                          REINVESTIGATION OF THE COMBAT ACTION AT

                                WANAT VILLAGE, AFGHANISTAN



I.      INTRODUCTION AND SUMMARY

         This summarizes the results of our oversight review of the reinvestigation directed by the
Commander, U.S. Central Command (USCENTCOM), into the circumstances surrounding combat
action at Wanat village, Wygal District, Nuristan Province, Afghanistan that occurred on July 13,
2008, and resulted in significant casualties to U.S. forces. The USCENTCOM appointing order, in
part, directed that the investigating officer determine whether actions by commanders and staffs at the
Battalion, Brigade, and Division levels relating to the initial occupation of Wanat and the
establishment of a combat outpost constituted dereliction of duty. We focused our review on the
adequacy of the reinvestigation, particularly with respect to its findings concerning senior officers at
Division level. In that regard, we examined:

        •	 The inherent responsibilities for Platoon-level tactical matters at Division level;

        •	 Whether Division staff were sufficiently aggressive in monitoring the establishment of the
           combat outpost at Wanat; and

        •	 Whether guidance at Division level of combat outpost establishment was sufficient.

        We conclude that the USCENTCOM reinvestigation, completed on January 12, 2010,
sufficiently established the facts regarding the combat action at Wanat and reasonably assigned
accountability by identifying those individuals whose acts or omissions could be characterized as
dereliction in the performance of duties. Notwithstanding the extraordinary courage, tenacity, and
skill demonstrated by the Company Commander and all those who helped fight off the enemy attack
at Wanat, we agree that the Company Commander, through neglect, was derelict in the performance
of his duty to conduct detailed planning for his company’s role in the establishment of the combat
outpost at Wanat and in his duty to provide guidance, support, and supervision to his subordinates
during the establishment of the combat outpost at Wanat. We also agree that the Battalion
Commander, through neglect, was derelict in the performance of his duty to properly oversee the
planning and execution of Operation Rock Move and the subsequent construction of the combat
outpost at Wanat. 1

       Additionally, we agree with the USCENTCOM endorsement dated January 21, 2010, that the
Brigade Commander maintained overall command responsibility for the operation and should have
known of its inadequacies with respect to planning, resourcing, and supervision; and therefore, the



1
 Operation Rock Move was the name of the Battalion’s Concept of Operations Plan developed in June 2008 for the
closure of combat outpost Bella, and the movement to and establishment of a combat outpost at Wanat, covering the
period July 8-10, 2010.
H10L111565072                                                                                                       2

Brigade Commander’s culpable inefficiency constituted dereliction of duty. 2 Regarding Division
Level, based on U.S. Army doctrine that commanders generally maintain information of friendly
forces two levels down, we agree that Major General (MG) Jeffrey J. Schloesser, U.S. Army, and his
Division staff exercised due care in the supervision of and support to Operation Rock Move and the
planned construction of combat outpost Wanat.

        This report sets forth our findings and conclusions based on a preponderance of the evidence.

II.     BACKGROUND

       From November 2006 through July 2009 MG Schloesser was the Commanding General of the
101st Airborne Division (Air Assault), headquartered at Fort Campbell, Kentucky. The Brigade level
commands of the Division consisted of the 1st, 2nd, 3rd, and 4th Brigade Combat Teams, the
101st Combat Aviation Brigade, and the 101st Sustainment Brigade. In late 2007, the Division’s 1st,
2nd, and 3rd Brigade Combat Teams deployed independently to Iraq, where each served under the
command of different Multinational Divisions conducting combat operations throughout Iraq. In
December 2007, the 101st Combat Aviation Brigade deployed to Afghanistan in support of Operation
Enduring Freedom. In March 2008, the Division Headquarters, the Division’s 4th Brigade Combat
Team, and the 101st Sustainment Brigade joined the 101st Combat Aviation Brigade in Afghanistan
in support of Operation Enduring Freedom as Combined Joint Task Force 101 (CJTF-101).

        In a transfer of authority ceremony on April 10, 2008, MG Schloesser assumed control of the
Regional Command East sector of Afghanistan from MG David M. Rodriguez, U.S. Army,
Commanding General of the 82nd Airborne Division (CJTF-82). The CJTF-101 Headquarters
located at Bagram Air Base in Afghanistan was responsible for an area of operation approximately
46-48,000 square miles, including much of the volatile border region between Afghanistan and
Pakistan. Prior to his actual arrival in Afghanistan on April 1, 2008, MG Schloesser had conducted
pre-deployment site surveys in the spring of 2007 and again in the fall of 2007, which included
visiting combat outposts in Regional Command East.

        During the spring of 2008, CJTF-10l, 173d Airborne Brigade Combat Team (hereinafter
"Brigade”), and 2d Battalion, 503d Parachute Infantry Regiment (hereinafter “Battalion”) undertook
an effort to realign Coalition Forces in Regional Command East. 3 The purpose of the realignment
was to free-up maneuver elements and better support counterinsurgency operations by locating
Coalition Forces near population/economic centers, local government officials, and Afghan National
Security Forces.

       The Battalion identified the village of Wanat as a location that would support the
development of local governance, economics and security; would serve as a blocking position in the

2
 The Investigating Officer initially found that the Brigade Commander and his staff exercised due care in the supervision
of and support to Operation Rock Move and the planned construction of the combat outpost at Wanat.
3
 173d Airborne Brigade Combat Team, commanded by Colonel (COL) Charles A. Preysler, U.S. Army, and
2d Battalion, 503d Parachute Infantry Regiment, commanded by Lieutenant Colonel (LTC) William B. Ostlund,
U.S. Army, deployed to Afghanistan in May 2007 from their home station in Italy, where they joined CJTF-82 for
11 months prior to CJTF-82’s transfer of authority to CJTF-101.
H10L111565072                                                                                               3

Wygal valley seven kilometers north of the Battalion's command post at Camp Blessing and eight
kilometers south of a platoon-sized combat outpost (named Bella) that the Battalion wanted to close;
and could be supported by a ground line of communication. In keeping with counterinsurgency
doctrine, the Battalion negotiated with village elders at Wanat for use of land to build a combat
outpost, as seizing the property would have alienated the local population. After several months of
negotiations, a lease was signed in June 2008. The site selected for the combat outpost at Wanat was
adjacent to the village's houses, mosque, bazaar, and hotel, and was near the local District Center and
Afghan National police station. The site selected was on a plateau where two valleys met and was
surrounded by mountains and low ground, resulting in extensive dead space (an area that cannot be
visually observed) around the position.

        The Battalion's plan to realign within the Wygal Valley and establish a combat outpost at
Wanat was a two-part operation called Operation Rock Move. The Concept of Operations
(CONOPS) covered a 3-day period from July 8-10, 2008, and addressed the simultaneous
disestablishment of combat outpost Bella and the initial movement to and occupation of the site at
Wanat, and included those assets external to the Battalion required to conduct the operation. The
Battalion wanted to disestablish combat outpost Bella because Bella could only be
reinforced/resupplied by air and was not associated with any local governance, Afghan National
Security Forces, or population center.

         The Battalion planned to occupy and secure the site at Wanat on July 8, 2008, with Coalition
Forces consisting of a Battalion unit (the 2nd Platoon from Chosen Company) and an Afghan
National Army platoon. The CONOPS directed the seizure of dominant terrain around Wanat and
the emplacement of multiple observation posts. The plan called for construction of the combat
outpost fortifications to begin July 9, 2008, using contracted Afghan heavy engineer equipment and
labor. However, prior to briefing the CONOPS to higher headquarters for approval, the Battalion
learned that the Afghan heavy engineer equipment would be delayed at least five days beyond the
start of Operation Rock Move. The Battalion chose to execute the operation as scheduled, but made
no adjustment to the number of forces in Wanat, even though soldiers would be required to
simultaneously secure the site and construct defensive positions using soldier labor until the heavy
engineer equipment arrived. Supplies needed to construct the combat outpost were scheduled to he
delivered by ground convoy and aircraft on July 9, 2008.

        On July 7, 2008, CONOPS Rock Move was briefed to and approved by Brigadier General
                                                                                           4
(BG) Mark A. Milley, U.S. Army, Deputy Commanding General for Operations, CJTF-101.
Operation Rock Move began on July 8, 2008, with 2d Platoon, Chosen Company occupying the
position at Wanat with five up-armored vehicles. On July 9, 2008, additional U.S. and Afghan
soldiers, construction supplies, and equipment were delivered by CH-47 Chinook helicopters. A
ground convoy of five Afghan supply trucks scheduled to deliver construction supplies to Wanat on
July 9, 2008, did not depart Camp Blessing because of mechanical issues with a vehicle from the



4
 There were three different levels of CONOPS: Level 0, Level 1, and Level 2. Operation Rock Move was a Level 1
CONOPS. All Level 1 CONOPS required Division level approval. A Level 2 CONOPS required approval at the higher
International Security Assistance Force level. In our view, the designation of Operation Rock Move as a Level 1
CONOPS was appropriate.
H10L111565072                                                                                                         4

Route Clearance Package (vehicles/equipment used to detect, mark, report, and neutralize explosive
hazards and other obstacles along a defined route).

        From July 8-12, 2008, Coalition Forces at Wanat constructed defensive positions utilizing
soldier labor, construction materials delivered by CH-47 helicopters, and a single U.S. Army Bobcat
(small frontloader delivered by a CH-47 helicopter to fill HESCO barriers (large canvas and wire
mesh containers filled with dirt, rocks, or other materials)) around a mortar pit and a latrine. By the
evening of July 12, 2008, the Coalition Forces at Wanat had established individual defensive
positions, a concertina wire perimeter (not all wire was anchored in the ground by metal pickets), and
a single observation post (OP), named Topside. None of the positions had overhead protection.

        OP Topside was located approximately 100 meters to the east of the main combat outpost.
There were no observation posts established in the high ground surrounding the site. 2nd Platoon did
not establish OP Topside along the most likely enemy avenues of approach into the position or into
the area of operations; rather it was established based on constraints faced by 2nd Platoon, such as its
proximity for reinforcement and the availability of existing cover (rock boulders). The dead space
around OP Topside began approximately 10 meters to the north of the OP.

       By the evening of July 12, 2008, the Coalition Force combat power at Wanat consisted of 76
personnel (49 U.S., consisting of 40 soldiers from 2nd Platoon, 6 combat engineer soldiers, and 3
Marines of an Embedded Training Team; 24 Afghan soldiers; and 3 interpreters), five up-armored
vehicles; two .50 caliber machine guns; two grenade launchers; one TOW missile launcher with
Improved Target Acquisition System (ITAS); one 120mm mortar and one 60mm mortar; one Long
                                                                                              5
Range Scout Surveillance System (LRAS); and night vision capability throughout the Platoon.

        At 4:00 a.m. on July 13, 2008, U.S. and Afghan forces at Wanat, to include OP Topside,
conducted “stand-to” (the practice of ensuring all personnel are awake, alert, and manning their
fighting positions) and were preparing for a joint U.S./Afghan patrol to reconnoiter locations for an
Afghan observation post. At approximately 04:20 a.m., an estimated 120 Anti-Afghan Forces
attacked Coalition Forces at Wanat (from positions in the mountains to the west, north, and east, as
well as firing positions in the houses, mosque, hotel, and bazaar immediately adjacent to the combat
outpost), using small arms, machine guns, and rocket propelled grenades. The ensuing battle lasted
several hours, with Coalition Forces using artillery, AH-64 Apache gunships, and fixed wing close air
support to defeat the attack. Coalition Forces fought valiantly throughout the battle, displaying
courage, tenacity, and initiative. By the end of the battle, 9 U.S. soldiers had been killed in action,
and 27 U.S. and 6 Afghan soldiers wounded.

        Following the battle on July 13, 2008, MG Schloesser determined that Coalition Forces could
no longer achieve their counterinsurgency objectives in Wanat, due to complicity in the attack by the
local government officials, population, and Afghan National police. On July 15, 2008, Coalition
Forces withdrew from Wanat.



5
 The Chosen Company Commander, Captain (CPT) Matthew R. Myer, U.S. Army, joined 2nd Platoon at Wanat on
July 12, 2008. The aircraft that he arrived on also brought a fuel blivet for the Bobcat, and 12-15 cases of water.
H10L111565072                                                                                            5

        In August 2009, we identified deficiencies in Army investigations into matters concerning the
establishment of the combat outpost at Wanat on July 8, 2008, and the ensuing battle five days later.
By Information Memorandum to the Secretary of Defense, dated September 4, 2009, the DoDIG
advised that he and Admiral Michael G. Mullen, U.S. Navy, Chairman of the Joint Chiefs of Staff,
agreed the Chairman's Office would initiate a reinvestigation.

       By memorandum of September 24, 2009, General (GEN) David H. Petraeus, U.S. Army,
Commander, USCENTCOM, appointed Lieutenant General (LtGen) Richard F. Natonski,
U.S. Marine Corps, to conduct an investigation, pursuant to the Manual of the Judge Advocate
General of the Navy, focusing on the accountability of commanders and staff at the Battalion,
Brigade, and Division (CJTF 101) levels. MG Michael L. Oats, U.S. Army, was appointed as LtGen
Natonski’s deputy investigating officer. 6

        LtGen Natonski completed the reinvestigation on January 12, 2010, finding the Battalion
Commander and the Company Commander derelict, through neglect, in the performance of their
duties.

       By endorsement of January 21, 2010, GEN Petraeus modified the conclusions to hold the
Brigade Commander derelict, through culpable inefficiency, in the performance of his duties.

        GEN Petraeus concurred with findings concerning MG Schloesser and his division staff -­
that they reasonably relied on information provided from lower commands and exercised due care.

        GEN Petraeus forwarded the report to the Army for action. GEN Charles C. Campbell,
U.S. Army, Commanding General, U.S. Army Forces Command, was appointed to determine the
nature of any disciplinary action taken against officers found derelict.

III.    SCOPE

       A DODIG team, headed by Mr. Donald M. Horstman, Deputy Inspector General for
Administrative Investigations and Ambassador Kenneth P. Moorefield, Deputy Inspector General for
Special Plans and Operations, traveled to USCENTCOM at MacDill AFB, Florida, on September 28,
2009, to brief LtGen Natonski and MG Oates on the events leading up to the combat action at Wanat
and the basis for the determination that additional investigation was warranted.

        On February 17, 2010, LtGen Natonski and members of his investigative team briefed this
Office and provided a copy of the basic report. As part of our oversight review, we reviewed the
report and the 78 enclosures (approximately 4500 pages total), which included the sworn, taped
testimony of the commanders at the Company, Battalion, Brigade, and Division levels, as well as the
key participants at all these levels. Additionally, we reviewed the Army Regulation (AR) 15-6
Investigation, approved by MG Schloesser on August 19, 2008; the draft Combat Studies Institute
Occasional Paper, dated June 3, 2009; and the Department of the Army IG DoD Hotline Completion
Report, dated April 13, 2009.

6
 By memorandum of October 7, 2009, GEN Petraeus appointed MG David G. Perkins, U.S. Army, to serve as
LtGen Natonski’s deputy investigating officer, in place of MG Oats, now Lieutenant General (LTG) Oats.
H10L111565072                                                                                        6


        Although certain enclosures of the reinvestigation report were classified, the information in
this oversight review is unclassified. We believe the issues are fully addressed without the inclusion
of classified information.

IV.    FINDINGS AND ANALYSIS

        Did the USCENTOM reinvestigation sufficiently establish the facts regarding the combat
action at Wanat to reasonably assign accountability?

Standards

      Judge Advocate General (JAG) Instruction 5800.7E, “Manual of the Judge Advocate
General (JAGMAN)”, dated June 20, 2007

        Chapter 2, “Administrative Investigations,” sets forth the principles governing the convening,
conduct, review, and storage of administrative investigations. Regarding standards of proof, except
for facts of which a court may take judicial notice, an administrative investigation shall arrive at
findings of fact only if supported by a preponderance of the evidence, more likely than not, unless a
higher clear and convincing standard is required, as set forth below:

       •	 To rebut the presumption that an injury, disease, or death has been incurred in the line
          of duty;

       •	 To rebut the presumption of mental responsibility when the question of a member’s
          mental responsibility has been raised by the facts or by the nature of the incident;

       •	 To rebut the presumption that an unauthorized absence period of less than 24 hours did
          not materially interfere with the performance of the member’s military duties in line of
          duty/misconduct cases; or

       •	 To find that the acts of a deceased service member may have caused harm or loss of life,
          including the member's own, through intentional acts.

       Uniform Code of Military Justice (UCMJ), Article 92, “Failure to obey order or
regulation”

       Among the offenses encompassed by Article 92 is dereliction in the performance of duties.
The elements of the offense of dereliction are:

       •	 The Service member has certain duties;

       •	 The Service member knows or reasonably should know of the duties; and

       •	 The Service member is willfully, through neglect, or culpable inefficiency, derelict in the
          performance of those duties.
H10L111565072                                                                                         7

       Duty. A duty may be imposed by treaty, statute, regulation, lawful order, standard operating
procedure, or custom of the service.

         Knowledge. Actual knowledge of duties may be proved by circumstantial evidence. Actual
knowledge need not be shown if the individual reasonably should have known of the duties. This
may be demonstrated by regulations, training or operating manuals, customs of the service, academic
literature or testimony, testimony of persons who have held similar or superior positions, or similar
evidence.

        Derelict. A person is derelict in the performance of duties when that person willfully or
negligently fails to perform that person’s duties or when that person performs them in a culpably
inefficient manner. “Willfully” means intentionally. It refers to the doing of an act knowingly and
purposely, specifically intending the natural and probable consequences of the act. “Negligently”
means an act or omission of a person who is under a duty to use due care which exhibits a lack of that
degree of care which a reasonably prudent person would have exercised under the same or similar
circumstances. “Culpable inefficiency” is inefficiency for which there is no reasonable or just
excuse.

       Army Regulation (AR) 600-20, “Army Command Policy,” dated March 18, 2008

       This regulation prescribes the policies and responsibilities of command.

        Paragraph 2-1, “Chain of Command,” states, in part, that commanders are responsible for
everything their command does or fails to do. However, commanders subdivide responsibility and
authority and assign portions of both to various subordinate commanders and staff members. In this
way, a proper degree of responsibility becomes inherent in each command echelon. Commanders
delegate sufficient authority to Soldiers in the chain of command to accomplish their assigned duties,
and commanders may hold these Soldiers responsible for their actions. Commanders who assign
responsibility and authority to their subordinates still retain the overall responsibility for the actions
of their commands.

       Field Manual (FM) 71-100, “Division Operations,” dated August 28, 1996

       This manual is the capstone manual for Army division operations, and is consistent with joint
doctrine. Of particular interest during our oversight review were responsibilities assigned to the
Division commander. Chapter 3, “Division Battle Command,” states, in part, that:

       • The division commander’s leadership provides purpose and direction to both soldiers and
       units. The commander is responsible for everything his unit does or fails to do;

       • Subordinate unit actions are monitored. Feedback from subordinate units assists in
       controlling the operation to its successful conclusion;

       • The division commander trains his staff to help translate his intent and decisions into fully
       coordinated and supported operations. The division staff is expected to operate with a great
       deal of freedom and responsibility; and
H10L111565072                                                                                      8


        • Coordination links the division staff with maneuver brigades’ staff and the senior
        headquarters to which assigned.

        Chapter 5, “Defensive Operations,” states, in part, that:

        •	 Combat outposts normally fight from well-prepared, well-dug-in, nonmobile positions. If
           directed, they accept a large amount of ground combat;

        •	 They engage and destroy initial enemy forces with direct and indirect fires; and

        •	 Based on their need for extended early warning or time, commanders augment combat
           outposts with substantial fire support and combat support forces to achieve desired results.

      FM 6-0, “Mission Command: Command and Control of Army Forces,” dated
August 11, 2003

        Appendix B, “Information,” provides in the Section entitled, “Troops and Support Available”:

        •	 Section B-33. Commanders should know the disposition and situation of their forces
           without having to visit each unit on the ground. They generally maintain information of
           friendly forces two levels down. They maintain understanding of subordinates’ readiness,
           including, maintenance, training, strengths and weaknesses, commanders, and logistic
           status. Thus, commanders visit units to confirm reports or obtain better understanding of
           the operation’s decisive points or factors. These visits also provide insights into the
           intangibles that data and reports cannot capture; and

        •	 Section B-34. Commanders consider available troops and support when analyzing
           whether they have enough resources to accomplish a mission. If commanders determine
           that they do not, they request more from the higher commander.

Facts

        Regarding MG Schloesser, the Investigating Officer stated in Opinion 2 of the reinvestigation
that based on the information reported to, and known by MG Schloesser and his Division staff, due
care was exercised in the supervision of and support to Operation Rock Move and the planned
construction of combat outpost Wanat. The reinvestigation report cited 30 findings of fact to support
the opinion that MG Schloesser and his Division staff exercised due care. They are reiterated
verbatim below (numbering adjusted for this report).

        Findings of Fact to Support Opinion 2.

      1. That in the fall of 2007 during a site survey prior to the 101st Airborne Division’s
deployment, MG Schloesser formed the opinion that combat outposts Bella and Ranch House were
H10L111565072                                                                                                      9

too far from friendly lines of communication and “did not seem to have enough troops to accomplish
                                                                                7
the mission of enhancing governance and separating the people from the enemy.”

         2. That an element from the Division's Pathfinder unit had previously identified an alternate
site to the one eventually selected for the combat outpost at Wanat; however, that location was a few
hundred meters up a spur and would have pulled the Platoon away from the population.

        3. That MG Schloesser stated the pending relief in place caused Division to question whether
it was sound judgment to do the mission, that it was a calculated decision to execute Operation Rock
                                                                                      8
Move, and that the Battalion and the Company were the best units to do the mission.

        4. That the Battalion Executive Officer stated the relief in place served as a forcing function
for the Battalion to move out of combat outpost Bella, as the relief in place “ironically” gave the
Battalion a higher priority for aircraft that could then be used to support the move out of combat
               9
outpost Bella.

        5. That during planning, the Battalion did not request additional aircraft support from Brigade
in order to execute Operation Rock Move.

       6. That on July 3, 2008, following “multiple iterative meetings, back briefs and discussions”
with the Brigade Commander, the Battalion Commander, and Division staff, MG Schloesser
approved the concept of closing combat outpost Bella and establishing Wanat, to be followed by a
Concept of Operations (CONOPS) brief.

       7. That a Level 1 CONOPS required Division level approval (Operation Rock Move was a
Level 1 CONOPS).

       8. That on July 7, 2008, BG Milley received a CONOPS brief on Operation Rock Move and
approved the operation as the plan was “nested" within the Division Commander’s intent to readjust
the combat outpost footprint in Regional Command East.

        9. That prior to approving Operation Rock Move, BG Milley asked the Brigade Commander,
the Battalion Commander and the staffs participating in the brief, “do you think we are doing too
much here?” - receiving a “unanimous response ... that we had to get this done on the [Brigade' s]
watch in order to set the conditions for the incoming unit.”

        10. That prior to approving Operation Rock Move, BG Milley had concerns regarding the
strain on aircraft due to the relief in place, other operations, and CONOPS Rock Move, but was

7
  “Ranch House” was the name of another combat outpost in the vicinity of Bella that was closed in October 2007 prior to
the 101st Airborne Division’s deployment
8
  The Brigade, including the Battalion and Chosen Company, was ending its Afghanistan deployment and was scheduled
to be relieved in place during the late-July, early-August time period.
9
 Bella was an air-centric combat outpost, meaning the occupants and their equipment could only be extracted by rotary
winged aircraft.
H10L111565072                                                                                      10

assured by his Aviation Brigade and Task Force Commanders that the mission could be executed
without significant risk to other operations.

       11. That on July 7, 2008, during the Division Commander's Update Brief, Brigade reported to
Division that over the next 48 hours, “Task Force Rock will conduct their air movement of equipment
and personnel from Bella to Camp Blessing; Bella forces will begin disestablishment from Bella
Outpost structures and conduct air movement of all personnel and equipment over 2 days. Task
Force Rock will also conduct air movement/ground assault convoy of equipment and personnel from
Camp Blessing to Wanat July 8-9, 2008, and begin construction and fortification of the new combat
outpost in Wanat.”

        12. That on July 9, 2008, COL Preysler (the Brigade Commander), reported to Division that
the exfiltration from combat outpost Bella was complete, “nothing significant to report with respect
to enemy activity” or Wanat.

       13. That on July 10, 2008, COL Preysler reported to Division that “Bella/Wanat operation
nothing significant to report.”

        14. That on July 11, 2008, COL Preysler reported to Division “Wanat nothing significant to
report.”

     15. That three days a week, MG Schloesser would host a Commander's Update Brief, but
MG Schloesser also maintained a direct line of communication with all of his Brigade Commanders.

       16. That on July 12, 2008, during the Commander's Update Brief, Brigade reported to
Division that over the next 48 hours, “Task Force Rock will continue with their fortifications at the
Wanat combat outpost. Mortar pits have been fortified and the Concertina-Wire perimeter has been
laid. They are currently working on emplacing HESCO barriers (large canvas and wire mesh
containers filled with dirt, rocks, or other materials) to complete the perimeter defense.”

      17. That on July 12, 2008, MG Schloesser was told that combat outpost Wanat was at or near
75% complete.

        18. That on July 12, 2008, BG Milley recalled being informed by his Chief of Operations that
Brigade had reported that the Wanat portion of Rock Move was 75% complete; BG Milley also
recalled that during the Commander’s Update Brief, nothing significant to report was reported for
Wanat.

        19. That Division did not have a standardized reporting format that detailed the construction
status of combat outposts; instead BG Milley interpreted Brigade’s report to mean “the platoon is set,
they got their stuff, their defense is in ... they are on track.”

        20. That MG Schloesser believed that the unit at Wanat was conducting routine, focused,
security patrols or counter-reconnaissance patrols, even as they built the combat outpost and
improved defenses.
H10L111565072                                                                                                       11

       21. That MG Schloesser stated if you don't have lengthy fields of fire like with the
topography at Wanat, “you can be vulnerable … you address this by providing the best security you
can and you attempt to reach out by regular patrolling beyond that area to determine your dead space
not only 100 meters away but 700-800 meters away.”

        22. That the Brigade's Operational Needs Statement dated May 1, 2008, stated that “there is
no existing master plan, as this is a new location,” and that an attached site diagram “should be used
by the design team as the initial concept for combat outpost layout.”

       23. That on May 31, 2008, Brigade modified their Operational Needs Statement for combat
outpost Wanat by including a “stone and mortar wall" that had been requested by Battalion.

       24. That the 420th Engineer Brigade estimated it would take eight weeks to construct a
combat outpost at Wanat, with the first four weeks being required for site preparation and the
                                   10
construction of HESCO perimeters.

        25. That the 420th Engineer Brigade's cost summary for combat outpost Wanat facility
construction lists “troop labor” for site preparation, force protection, guard towers, hard huts and
electrical.

      26. That on or about June 14, 2008, Division’s Joint Facility Utilization Board approved the
expenditure of funds for the construction of a combat outpost at Wanat.

        27. That upon reviewing the intelligence portion of the CONOPS brief for Operation Rock
Move, the Division G-2, “thought the Battalion S-2 section had done a great job in terms of analyzing
where they thought the enemy was ... as the battalion S-2s were very good … and had a refined
picture.”

        28. That BG Milley stated that “75 guys, two platoons; mixed U.S. Army and Afghan
National Army, is significant, and you put a Company command and control and the air on top of
them ... I believe that was an adequate amount of combat power, given the enemy threat that was
briefed to me.”

       29. That MG Schloesser stated that by placing the Company Commander “on the scene along
with the amount of assets that were chopped to Wanat we felt there were enough measures taken to
                                                                                            11
mitigate the risks and to counter what we saw as the enemy’s most likely course of action.”


10
  The eight weeks identified in the Operational Needs Statement approved by COL Preysler on May 1, 2008, was for the
construction of a fully operational combat outpost, including personnel housing for 60 U.S. and 40 Afghan personnel, a
dining facility, an aid station, a well, and a Morale Welfare and Recreation (MWR)/gym facility. By the evening of July
12, 2008, the Coalition Forces at Wanat had established individual defensive positions, a concertina wire perimeter,
barriers around a mortar pit and a latrine, and a single observation post. None of the positions had structural overhead
protection.
11
  MG Schloesser testified that he agreed with COL Preysler’s assessment that the Company Commander, CPT Myer,
“knows that area better than any American alive.”
H10L111565072                                                                                     12

       30. That on July 5, 2008, COL Preysler reported to Division that an attack on combat outpost
Bella appeared to be disrupted due to the July 4, 2008, AH-64 Apache gunship strike.

       Opinions regarding Intelligence, Surveillance, and Reconnaissance (ISR) assets

        We believe Opinions 52 and 53 regarding ISR are also relevant in assessing MG Schloesser
and his Division Staff’s supervision and support of Operation Rock Move and the planned
construction of combat outpost Wanat, because of concerns that the timing and magnitude of the
insurgent attack on Wanat should have been anticipated and, thereby, better defended:

       •	 That the ISR assets allocated in support of Operation Rock Move were in excess of the
          level that could normally be expected for an operation that was Division's third ISR
          collection priority, especially in the ISR resource constrained environment of Afghanistan
          in 2008; and

       •	 That ISR assets shifted from supporting Operation Rock Move, were shifted through the
          normal ISR prioritization and allocation process, and followed a period when no
          indications or warnings of a pending large scale attack on Wanat were detected.

Discussion

        We conclude that the USCENTCOM reinvestigation of combat actions at Wanat was
sufficiently thorough and rigorous, and in accordance with the JAG Manual. The investigative team
conducted 48 sworn, recorded interviews of key participants at every level of command ranging from
platoon members to the CJTF-101 Commander. The reinvestigation and subsequent USCENTCOM
endorsement established 603 findings of fact that, through a preponderance of evidence, supported 61
opinions.

        Further, we conclude that the USCENTCOM reinvestigation sufficiently established the facts
regarding the combat action at Wanat, and reasonably assigned accountability by identifying those
individuals whose acts or omissions could be characterized as dereliction in the performance of
duties. Notwithstanding the extraordinary courage, tenacity, and skill demonstrated by the Company
Commander and all those who helped fight off the enemy attack at Wanat, we agree that the
Company Commander, through neglect, was derelict in the performance of his duty to conduct
detailed planning for his company’s role in the establishment of the combat outpost at Wanat and in
his duty to provide guidance, support, and supervision to his subordinates during the establishment of
the combat outpost at Wanat.

       We also agree that the Battalion Commander, through neglect, was derelict in the
performance of his duty to properly oversee the planning and execution of Operation Rock Move and
the subsequent construction of the combat outpost at Wanat. Further, we agree with the
USCENTCOM endorsement that the Brigade Commander maintained overall command
responsibility for the operation and should have known of its inadequacies with respect to planning,
H10L111565072                                                                                                        13

resourcing, and supervision; and therefore, the Brigade Commander’s culpable inefficiency
constituted dereliction of duty. 12

        We conclude that MG Schloesser and BG Milley were not derelict in the performance of their
duties, in that they and the Division Staff exercised due care in the supervision of and support to
Operation Rock Move and the planned construction of combat outpost Wanat. The UCMJ,
Article 92, states that a person is derelict in the performance of duties when that person willfully or
negligently fails to perform duties, or when that person performs them in a culpably inefficient
manner. To constitute dereliction, three elements must be proven; i.e., that the accused: (1) had
certain duties; (2) knew or reasonably should have known of the duties; and (3) was willfully or
through neglect, or culpable inefficiency, derelict in the performance of those duties.

        In MG Schloesser’s role as CJTF-101 Commander, and in BG Milley’s role as Deputy, both
had a duty and reasonably knew of their duty as outlined in FM 71-100, “Division Operations,” to
provide purpose and direction to their subordinate units, to monitor their subordinate units’ actions,
and to obtain feedback from their subordinate units to assist in controlling an operation to its
successful conclusion. Regarding combat outposts, FM 71-100 states that commanders augment
combat outposts with substantial fire support and combat support forces to achieve desired results.
Further, U.S. Army doctrine as provided in FM 6-0, “Mission Command: Command and Control of
Army Forces,” states that commanders should know the disposition and situation of their forces
without having to visit each unit on the ground, and generally maintain information of friendly forces
two levels down. Therefore, the analysis pivots on whether there was evidence that MG Schloesser
or BG Milley willfully or through neglect or culpable inefficiency failed to exercise due care in the
supervision of and support to Operation Rock Move and the planned construction of combat outpost
Wanat which could have contributed to the large scale attack at Wanat.

      We set forth the following points to support our conclusions with respect to MG Schloesser
and BG Milley:

        •	 MG Schloesser maintained a direct line of communication with his Brigade Commanders
           and hosted a Commander’s Update Brief three days a week. He approved the concept on
           July 3, 2008, for closing combat outpost Bella and establishing Wanat, following multiple
           iterative meetings, back briefs, and discussions with the Brigade Commander, the
           Battalion Commander, and his Division staff, to be followed by a CONOPS brief to
           BG Milley. This coordination linked the division staff with the staff of the maneuver
           brigade and provided MG Schloesser with information necessary for the doctrinal
           command and control of forces two levels (battalion) down;

        •	 BG Milley received the CONOPS brief on July 7, 2008, and approved the Operation Rock
           Move because it was consistent with MG Schloesser’s intent to readjust the combat
           outpost footprint in Regional Command East. The brief reasonably satisfied the
           FM 71-100 requirement that the division commander train his staff “to help translate his
           intent and decisions into fully coordinated and supported operations”;

12
   As noted above, the Investigating Officer initially found that the Brigade Commander and his staff exercised due care
in the supervision of and support to Operation Rock Move and the planned construction of the combat outpost at Wanat.
H10L111565072                                                                                       14


       •	 Although Division, Brigade, and Battalion recognized the presence of a large enemy force
          near combat outpost Bella prior to Operation Rock Move, they did not assess that enemy
          forces could move south and mount a large-scale, coordinated attack on Wanat within the
          first few days of occupation. This assessment was consistent with past insurgent combat
          tactics which involved a series of small probing attacks rather than a large-scale,
          coordinated attack;

       •	 MG Schloesser and BG Milley had no reasonable basis to dispute the Battalion decision
          that placing the Company Commander at Wanat with the amount of assets allocated
          (combat power) was sufficient to counter what was considered the enemy’s most likely
          course of action. However, the investigation noted that the company commander arrived
          on site 3 days later than established in the plan. Had the company commander arrived as
          scheduled, we find it likely the company commander would have recognized and
          corrected, or at least reported, many of the deficient tactical and support conditions at the
          site. The battalion and brigade commanders, not the division commander and his deputy,
          bore responsibility for failing to ensure adequate company or battalion-level leadership
          presence during defensive preparations entailing substantial external support;

       •	 ISR assets for CJTF-101 were limited and the assets allocated in support of the Battalion
          were in excess of normal levels. Neither Brigade nor Division received information
          regarding 2nd Platoon's observations of indications and warnings of an attack after the
          Platoon's arrival at Wanat. Division ISR assets were shifted away from Wanat on July 12,
          2008, through the normal ISR prioritization and allocation process at Division level, a
          reasonable decision given competing demands for those Division resources; and

       •	 On July 9, 10, and 11, 2008, COL Preysler reported to Division, “nothing significant to
          report” regarding Wanat. On July 12, 2008, the day before the attack on Wanat, both
          MG Schloesser and BG Milley received reports that combat outpost Wanat was 75%
          complete. Doctrinally, commanders are expected to maintain awareness of the disposition
          and status of forces two levels down. While commanders are responsible for all actions
          within their unit, MG Schloesser appropriately subdivided responsibility and authority to
          his subordinate commanders at brigade and battalion levels. MG Schloesser and his staff
          then monitored subordinate unit actions, as reported to him by the brigade commander.
          Based on the positive portrayal of preparations and the absence of any reported shortfalls,
          MG Schloesser and BG Milley reasonably believed that Operation Rock Move and the
          subsequent construction of combat outpost Wanat were proceeding according to the
          approved plan and that no intervention or reallocation of resources by Division was
          required.

V.     CONCLUSIONS

       We conclude that the USCENTOM reinvestigation sufficiently established the facts regarding
the combat action at Wanat and appropriately assigned accountability.
H10L111565072                                                                                    15


VI.    RECOMMENDATIONS

       We have no recommendations in the matter.

        We note that GEN Petraeus directed that the USCENTCOM Operations Directorate and the
USCENTCOM major subordinate commands work together to prepare a Standard Operating
Procedure (SOP) for the planning, resourcing, and supervision of the establishment, construction, and
manning of fixed operating positions. Additionally, GEN Petraeus directed that a copy of the report
and his endorsement be forwarded to the Commander, U.S. Joint Forces Command for the
development of lessons learned and sharing of those lessons with the appropriate military service
lessons learned organizations.
